No.

In The Supreme Court Of The United States
John Devencenzi,
v.

Petitioners,

United States of America,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
——————————
Certificate of Service
——————————
Assistant Federal Public Defender Cristen C. Thayer, pursuant to Supreme
Court Rule 29, certifies she served the within Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit on counsel for Respondent
United States of America by enclosing a copy thereof in an envelope, postage
prepaid, addressed to:
Ms. Elizabeth Prelogar
Acting Solicitor General of the United States
Office of Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

and depositing same with the United Parcel Service in Las Vegas, Nevada, this 3rd
day of August 2021, and further certifies that all parties required to be served have
been served.
/s/Cristen C. Thayer
Cristen C. Thayer
Assistant Federal Public Defender
Office of the Federal Public Defender
411 E. Bonneville Ave., Suite 250
Las Vegas, Nevada 89101
(702) 388-6577
Cristen_Thayer@fd.org
Counsel for Petitioner

